              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Protective Force Contracts at the Oak
Ridge Reservation




DOE/IG-0719                                   February 2006
PROTECTIVE FORCE CONTRACTS AT THE OAK RIDGE
RESERVATION




TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objective          1

              Observations and Conclusions        2


              DETAILS OF FINDINGS

              Background                          3

              Additional Profit                   3

              Limit on Profit                     4

              Overtime Premium                    5

              Performance Measures                5

              Observation                         6


              RECOMMENDATIONS                     7


              MANAGEMENT AND INSPECTOR COMMENTS   7


              APPENDICES

              A. Scope and Methodology            10

              B. Management Comments              11
Overview

INTRODUCTION    The Department of Energy (DOE) mission at the Oak Ridge
AND OBJECTIVE   Reservation requires a paramilitary protective force comprised of
                several hundred security police officers to safeguard the production
                and storage of nuclear weapons components, special nuclear
                material, and other sensitive work. Wackenhut Services, Inc.
                (Wackenhut) initially provided protective force services for the
                Oak Ridge Reservation under one contract. However, protective
                services for the Y-12 National Security Complex were segregated
                into a separate contract following the establishment of the National
                Nuclear Security Administration (NNSA). As a result, Wackenhut
                now provides protective services for the Oak Ridge Reservation
                under two essentially identical contracts. One contract, with the
                DOE Oak Ridge Office, covers the Oak Ridge National
                Laboratory, East Tennessee Technology Park, and the DOE
                Federal building complex in Oak Ridge. The other contract, with
                the NNSA Y-12 Site Office in Oak Ridge, covers the Y-12
                National Security Complex. The protective force contracts were
                structured to combine elements of a time-and-materials type
                contract with elements of an incentive type contract, characterized
                as a time-and-materials-award fee contract.

                In June 2000, an Office of Inspector General (OIG) audit, Security
                Overtime at the Oak Ridge Operations Office (ER-B-00-02),
                determined that the Oak Ridge Operations Office, now the Oak
                Ridge Office, had not developed performance measures for
                reducing protective force overtime. In addition, the audit found
                that the calculation of the available award fee for the protective
                force contract resulted in more available award fee for overtime
                hours than for regular hours. A June 2005 OIG inspection,
                Protective Force Training at the Department of Energy’s Oak
                Ridge Reservation (DOE/IG-0694), noted that protective force
                personnel at the Oak Ridge Reservation incurred dramatically
                increased amounts of overtime in the post 9/11 period and that the
                trend in the use of overtime seemed to be continuing.

                The purpose of our inspection was to evaluate the Department’s
                protective force contract management activities, not to review
                overtime hours charged by individual protective force members.
                Specifically, the objective of the inspection was to determine
                whether incentives to reduce overtime for the protective force were
                included in the protective force contracts for the Oak Ridge
                Reservation.




Page 1                                        Protective Force Contracts at the
                                              Oak Ridge Reservation
OBSERVATIONS AND   The Department’s cost for protective force personnel to
CONCLUSIONS        provide security at the Oak Ridge Reservation increased from
                   about $67 million for 2000 to over $111 million for 2005. A
                   substantial portion of this increase was due to protective force
                   overtime. We concluded that the protective force contracts for the
                   Oak Ridge Reservation did not include contractor incentives to
                   reduce overtime; in fact, the contract structure had the opposite
                   effect. Specifically, we found that:

                   •   Modifications to the protective force contracts provided the
                       contractor profit from increases in overtime hours in the post
                       9/11 environment, as well as profit from an award fee. Based
                       on the limited information available, we estimated that, for
                       2005 alone, Wackenhut may be paid about $1.8 million in
                       additional profit by the Y-12 Site Office beyond the award fee.

                   •   The Department may have exceeded its own self-imposed
                       limits on profit.

                   •   The overtime premium, which is the additional 50 percent paid
                       for overtime hours above regular hours, was included in the
                       calculation of available award fee, resulting in an increase of
                       almost $1 million in the available award fee for 2005 for the
                       Oak Ridge Reservation. Including overtime premium in this
                       manner provides an incentive for contractors to incur large
                       amounts of overtime.

                   •   Performance awards may not effectively incentivize the
                       contractor to reduce the use of overtime.

                   We observed that the current protective force contracts at the Oak
                   Ridge Reservation were to expire in December 2005, and that
                   DOE planned to award new protective force contracts using the
                   same structure as the current contracts. We believe that this
                   decision should be evaluated based on the findings in this review;
                   concerns regarding the modification of the protective force
                   contracts currently in force; and, significant changes in the
                   protective force posture currently in process within the
                   Department.




Page 2                                              Observations and Conclusions
Details of Findings

BACKGROUND            The Oak Ridge Reservation protective force contracts combined
                      elements of a time-and-materials type contract with elements of an
                      incentive type contract. DOE used the market force of competition
                      to price the hourly rates and the award fee in the initial contract
                      awarded to Wackenhut in October 1999, per Federal Acquisition
                      Regulation requirements. Oak Ridge attempted to induce all of the
                      offerors, including Wackenhut, to exclude profit from the hourly
                      rates and include it in the available award fee. Wackenhut’s
                      proposal indicated that it did not include profit. Earning of award
                      fee was not guaranteed. The contracts were set to expire in
                      December 2004, but were extended without competition until
                      December 2005. The Oak Ridge Office renegotiated the hourly
                      rates for the 2005 extension. However, the Y-12 Site Office did
                      not renegotiate the hourly rates.

                      Under the protective force contracts, the contractor was reimbursed
                      at a fixed rate for every regular hour worked by the protective
                      force, and was reimbursed at a fixed rate that was 50 percent
                      higher for every overtime hour worked by the protective force.
                      The contracts contained a maximum number of “allowable” hours
                      that could be charged by the contractor each year. The competition
                      requirements induced the contractor to develop hourly rates using
                      the hourly rates paid to the protective force officers and adding
                      agreed-upon rates to cover the contractor’s estimated cost for
                      fringe benefits, overhead expenses, and general and administrative
                      (G&A) expenses. Although the contractor submitted cost
                      information, the Department did not validate the accuracy of the
                      information. Pursuant to the contract’s original terms, the hourly
                      rates in the contracts have been increased since 1999 to account for
                      increases in protective force pay, as well as increases in certain
                      associated fringe benefits.

ADDITIONAL            We found that modifications to the protective force contracts
PROFIT                provided the contractor profit from increases in overtime hours in
                      the post 9/11 environment, as well as profit from an award fee.
                      Specifically, the initial hourly reimbursement rates for the
                      protective force contracts were calculated by the contractor in
                      preparing its offer based on the number of hours required by DOE,
                      as well as the contractor’s estimate to fully recover all of the
                      contractor’s expenses, both variable and fixed, including its
                      overhead and G&A expenses. However, after the award of the
                      initial contract, DOE significantly increased the number of
                      allowable hours, but maintained the same hourly reimbursement
                      rates. In this type of contract, once the contractor has billed DOE
                      enough hours to recoup its fixed expenses, the contractor’s profit



Page 3                                                              Details of Findings
                                   increases with each additional hour billed. This condition is
                                   referred to as “over-recovery of fixed expenses.” As a practical
                                   matter, the over-recovery of fixed expenses is additional profit for
                                   the contractor.

                                   The allowable hours under the Oak Ridge contracts significantly
                                   increased through modifications to the initial contract. For
                                   example, in 2005 the allowable regular hours were 27 percent
                                   more than the allowable regular hours in 2000, and the overtime
                                   hours were 104 percent more than in 2000. This resulted in a
                                   significant increase in the maximum amount the contractor could
                                   bill DOE, from $67 million in 2000 to over $111 million in 2005.1
                                   We believe that the pricing of these contract modifications is not
                                   fully consistent with the Department of Energy Acquisition
                                   Regulation, Section 915.903 (f), which states that a detailed
                                   analysis of profit should be completed when the dollar amount of
                                   contract modifications is very significant, or the Federal
                                   Acquisition Regulation, which requires the contracting officer
                                   when pricing contract modifications to obtain cost and price data
                                   (or identify an exception to obtaining it) and perform cost and
                                   price analysis, including profit analysis, in sufficient detail to
                                   determine that the price of the modification is fair and reasonable.

                                   Based on the limited information available on the contractor’s cost
                                   estimates for 2005, we estimated that the Y-12 Site Office may pay
                                   the contractor about $1.8 million more than the contractor’s cost
                                   for security police officers for 2005. This profit would be in
                                   addition to the available award fee. In contrast, the Oak Ridge
                                   Office required the contractor to submit revised hourly rates for
                                   2005 that would only reimburse the contractor’s estimated costs.
                                   We were unable to determine whether these revised rates
                                   accurately reflected the contractor’s cost, as the cost information
                                   collected by the Oak Ridge Office was limited. In addition, the
                                   contractor’s cost information was not available to us for the years
                                   prior to 2005. Therefore, we were unable to quantify the amount
                                   of additional profit that may have been included in the prior years
                                   of the Y-12 Site Office and Oak Ridge Office contracts.

LIMIT ON PROFIT                    We found that the Department may have exceeded its own self-
                                   imposed limit on profit. The Oak Ridge protective force contracts
                                   do not fit any of the standard contract types, as the contracts
                                   combine elements of a time-and-materials contract with elements
                                   of a cost-plus-award fee type contract. When the initial contract
1
  These figures include labor costs of approximately $54.7 million in 2000 and approximately $85.7 million in
2005.



Page 4                                                                                   Details of Findings
              was established, DOE applied Department of Energy Acquisition
              Regulation, Section 915.404-4-72, “Special considerations for
              cost-plus-award-fee contracts,” which requires that the available
              award fee be reduced based on profit included in other areas of a
              contract. As noted earlier in this report, the hourly rates in the
              initial Wackenhut contract excluded all profit. In accordance with
              the regulation above, DOE set the potential award fee at the
              maximum allowable by this regulation. However, DOE appears to
              have exceeded this self-imposed regulatory limit by significantly
              increasing the hours charged to the contract, especially the
              overtime hours, while maintaining the same hourly rates.

              Y-12 Site Office officials acknowledged that the over recovery of
              fixed expenses was likely occurring, but they did not characterize
              the over recovery as profit. Therefore, they did not adjust the
              award fee. In addition, during our inspection, a DOE procurement
              official made the determination that the regulation above did not
              apply to the contracts because the contracts were hybrid contracts
              and not cost-plus-award-fee contracts. Therefore, the limits on
              profit were self-imposed limits rather than regulatory required
              limits.

OVERTIME      We found that the overtime premium, which is the additional 50
PREMIUM       percent paid for overtime hours above regular hours, was included
              in the calculation of available award fee. We believe that the
              practice of including overtime premium in the calculation of the
              contractor’s award fee has the effect of incentivizing contractors to
              incur large amounts of employee overtime. The OIG previously
              reported this issue in its June 2000 audit report. DOE calculated
              the available award fee based on a percentage of proposed labor
              costs, including the overtime premium. Since overtime hours were
              priced at a 50 percent higher rate than regular hours, the contracts
              included 50 percent more available award fee for overtime hours
              than for regular hours. For 2005, the award fee available to the
              contractor was $8.9 million. Of this, almost $1 million was based
              on the overtime premium that the contractor could receive from the
              Department.

PERFORMANCE   We found that performance awards may not effectively incentivize
MEASURES      the contractor to reduce the use of overtime. We determined that
              the contractor’s available award fee for 2005 was over $3 million
              higher than the available award fee for 2000, primarily as a result
              of increased overtime. The Federal Acquisition Regulation,
              Section 16.601(b)(1) advises agencies that for time-and-materials
              contracts “appropriate Government surveillance of contractor



Page 5                                                       Details of Findings
              performance is required to give reasonable assurance that efficient
              methods and effective cost controls are being used.” This
              requirement is necessary because a time-and-materials contract
              makes a labor hour a unit of sale, but does not make efficiency or
              successful performance a condition of payment. These features
              reward a contractor for inefficiency, since the more hours the
              contractor uses the more profit the contractor makes.

              In 2005, the Y-12 Site Office developed a performance measure to
              reduce unscheduled overtime at the Y-12 National Security
              Complex to an average program annual rate of no more than 15
              percent. Although this was a good first step, the performance
              measure addressed only unscheduled overtime, and not planned
              overtime. We did not find a performance measure regarding
              planned overtime.

              For the Oak Ridge Office, DOE implemented general performance
              criteria that directed the contractor to “Execute the day-to-day
              Protective Services Program in a safe, cost effective manner . . .”
              However, the criteria did not include specific performance
              measures regarding the use of overtime.

              In addition to the lack of effective performance measures to control
              use of overtime, DOE allowed the contractor to exceed the
              recommended 60 hour per week limit on overtime set by the
              DOE’s Protective Force Program Manual. In May 2002, DOE
              approved a variance for the Oak Ridge Reservation that allowed
              protective force officers to work up to 72 hours in any work week.
              This variance remains in effect.

OBSERVATION   We observed that the current protective force contracts at the Oak
              Ridge Reservation expire in December 2005, and that DOE plans
              to award new protective force contracts using the same structure as
              the current contracts. This is of concern in view of our findings
              regarding the structure and past administration of the protective
              force contracts. In addition, current acquisition regulations do not
              specifically address a time-and-materials with award fee type
              contract, such as the Oak Ridge protective force contracts. Instead,
              the regulations contain separate sections addressing either time-
              and-materials type contracts or cost-plus-award fee type contracts,
              neither of which are applicable to the Oak Ridge protective force
              contracts according to procurement officials. We were not able to
              identify any additional guidance developed by DOE regarding non-
              standard type contracts, such as the Oak Ridge protective force
              contracts.



Page 6                                                      Details of Findings
                  DOE management officials at the Oak Ridge Office acknowledged
                  the weaknesses in the current contract structure that allowed the
                  contractor the potential to receive profit from the over-recovery of
                  fixed expenses. They advised that they would attempt to include
                  provisions in the new protective force contracts at the Oak Ridge
                  Reservation to compensate for these weaknesses.

RECOMMENDATIONS   We recommend that the Manager, Y-12 Site Office, and the
                  Manager, Oak Ridge Office:

                  1. Recoup any “over recovery of fixed expenses” associated with
                     the Oak Ridge protective force contracts from inception to
                     2005;

                  2. Ensure that the forthcoming protective force contracts for Oak
                     Ridge address possible changes to the scope of the contracts;
                     and,

                  3. Ensure that overtime premium is not included in the calculation
                     of available award fee for the forthcoming protective force
                     contracts for Oak Ridge.

                  We recommend that the Director, Office of Procurement and
                  Assistance Management, in coordination with the Deputy Director,
                  Office of Acquisition and Supply Management:

                  4. Develop and issue guidance on administering non-standard
                     contracts, such as the Oak Ridge Reservation protective force
                     contracts; and,

                  5. Review the appropriateness of using the current contracting
                     structure for future contracts at the Oak Ridge Reservation and
                     other locations.


MANAGEMENT        Management’s comments are summarized below and included in
AND INSPECTOR     their entirety as Appendix B of this report.
COMMENTS
                  Recommendation 1
                  The DOE Oak Ridge Office and NNSA non-concurred with the
                  recommendation and were of the opinion that there was no
                  contractual or legal basis for recoupment under the fixed pricing
                  arrangement.




Page 7                                                    Recommendations
                                         Management and Inspector Comments
         Inspector Comment: We believe this situation makes it all the
         more important that guidance on administering non-standard
         contracts be issued to ensure that future contract modifications are
         not administered in a similar fashion.

         Recommendation 2
         The DOE Oak Ridge Office non-concurred with the
         recommendation; however, management’s comments indicated
         that the recently issued Request for Proposals for the new contracts
         included language indicating that reduced overtime rates, which
         will exclude reimbursement for fixed costs, will be used for
         unpredicted overtime hours.

         NNSA concurred with the recommendation and stated that contract
         management plans will be developed to ensure that overtime and
         contract modifications are adequately monitored to prevent the
         over-recovery of fixed expenses.

         Inspector Comment: We consider management’s actions to be
         responsive to the recommendation.

         Recommendation 3
         The Oak Ridge Office and NNSA non-concurred with the
         recommendation. The Oak Ridge Office and NNSA indicated that
         they work closely with the contractor to monitor overtime and that
         no regulatory requirement exists to eliminate the overtime
         premium from award fee calculations. The Oak Ridge Office also
         indicated that award fee on the overtime premium may be
         reasonable for the associated increment of risk to a contractor. In
         addition, the Oak Ridge Office believed that total exclusion from
         the available award fee may not necessarily be prudent because the
         contractor may seek the same end result via a higher overall award
         fee percentage. NNSA believed that the Government, not the
         contractor, was controlling the contractor’s use of overtime.
         Consequently, NNSA did not agree that calculating available
         award fee by including consideration for overtime costs
         incentivizes the contractor to incur overtime or that performance
         awards should emphasize the contractor’s reduction of overtime.

         Inspector Comment: We disagree that the award fee calculation
         does not incentivize the use of overtime. Because the Government
         does not control the contractor’s overtime on a daily basis, the
         structure of the contract and award fee is the Government’s
         primary management tool for controlling overtime. We believe
         that removing the premium portion of overtime from the award fee



Page 8                           Management and Inspector Comments
         calculation would remove an incentive to the contractor to keep
         overtime levels high.

         Recommendation 4
         The DOE Director, Office of Management, and NNSA non-
         concurred with the recommendation, stating that sufficient
         guidance exists for administering hybrid contracts and that the
         issues raised stemmed from not adhering to the existing guidance
         for pricing of contract modifications, rather than from the lack of
         guidance.

         Inspector Comment: We agree that policy exists regarding
         contract modifications, some of which is discussed on page 4 of
         this report. Despite the existence of these regulations, numerous
         knowledgeable contracting officers from 2000 to 2005 did not
         identify the need to review the rates used for the contract
         modifications made continually throughout this period. As Oak
         Ridge may not be the only site with these issues, we believe it
         would be prudent to distribute guidance addressing the
         implementation of the existing policy.

         Recommendation 5
         The DOE Director, Office of Management, concurred with the
         recommendation and stated that the overall contract structure was
         reviewed and determined to be appropriate. A special overtime
         rate was added to address unpredicted overtime.

         NNSA non-concurred with the recommendation, as the contract
         structure had already been reviewed as a result of discussions held
         regarding the draft report. The contract structure was determined
         to be appropriate with the inclusion of strong contract management
         plans. Both the DOE Director, Office of Management, and NNSA
         indicated that the contract structure did not cause an over-recovery
         of fixed expenses or additional profit, rather the administration of
         changes to the contract may have led to labor rates that were higher
         than necessary.

         Inspector Comments: We consider management’s actions to be
         responsive to the recommendation.




Page 9                           Management and Inspector Comments
Appendix A

SCOPE AND     The fieldwork for this inspection was conducted in August and
METHODOLOGY   September 2005. The inspection included reviewing the request for
              proposals and resulting contract awarded to Wackenhut, as well as
              subsequent modifications to the Wackenhut contract. The
              inspection also included:

              •   Reviewing audit reports prepared by the Defense Contract
                  Audit Agency regarding Wackenhut;

              •   Reviewing the Federal Acquisition Regulation and the
                  Department of Energy Acquisition Regulation; and,

              •   Interviewing Federal and contractor personnel.

              Also, pursuant to the “Government Performance and Results Act
              of 1993,” we examined performance measurement processes as
              they relate to overtime incentives.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 10                                              Scope and Methodology
Appendix B




Page 11      Management Comments
Appendix B        (continued)




Page 12      Management Comments
Appendix B        (continued)




Page 13      Management Comments
Appendix B        (continued)




Page 14      Management Comments
Appendix B        (continued)




Page 15      Management Comments
Appendix B        (continued)




Page 16      Management Comments
Appendix B        (continued)




Page 17      Management Comments
Appendix B        (continued)




Page 18      Management Comments
Appendix B        (continued)




Page 19      Management Comments
Appendix B        (continued)




Page 20      Management Comments
Appendix B        (continued)




Page 21      Management Comments
Appendix B        (continued)




Page 22      Management Comments
Appendix B        (continued)




Page 23      Management Comments
                                                                    IG Report No. DOE/IG-0719


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report that would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
